HHS/OIG, Audit -"Review of Federally Non-Participating Medicaid Costs Claimed by the State of New Jersey to the Disproportionate Share Hospital Program for the period April 1, 1997 through June 30, 2001,"(A-02-02-01040)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Federally Non-Participating Medicaid Costs Claimed by the State of New Jersey to the Disproportionate
Share Hospital Program for the period April 1, 1997 through June 30, 2001," (A-02-02-01040)
July 9, 2003
Complete
Text of Report is available in PDF format (818 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine if $45,461,490 (Federal share $22,730,745) Medicaid costs claimed by the
State of New Jersey, Department of Human Services, Division of Medical Assistance and Health Services (DMAHS) as disproportionate
share acute care hospital expenditures were allowable for Federal reimbursement.  These claims, which were developed
by a contractor hired by the State on a contingency fee basis, represented the medical expenditures paid by the State for
Medicaid beneficiaries and not previously submitted for Federal reimbursement during the period April 1, 1997 through June
30, 2001.  We found that the Medicaid costs claimed by DMAHS as disproportionate share acute care hospital expenditures
were allowable for Federal reimbursement.